0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in JANE DOE
AND JOHN DOE, Individually and as the natural
parents and next of kin of Minor Doe v. JACKSON
LOCAL SCHOOL DISTRICT BOARD OF
EDUCATION, TAMARA NEFF, MICHELLE KRIEG,
JIMMIE SINGLETON, SUSANNE WALTM4N, and
HARLEY NEFTZER , were sent via Two Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Two Day Service and e-mail to the following parties
listed below, this 27th day of August, 2020:
Sherrie Clayborne Massey
David S. Hirt
Peters Kalail & Markakis
6480 Rockside Woods Boulevard, S.
Suite 300
Cleveland, OH 44131-2222
(216) 503-5055
smassey@ohioedlaw.com
dhirt@ohioedlaw.com

Counsel for Respondents
Laura L. Mills
Counsel of Record
Mills, Mills, Fiely & Lucas, LLC.
101 Central Plaza South, Suite 1200
Canton, OH 44 702
(330) 456-0506
LMills@MMFLlaw.com

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
: Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 27, 2020.

U

Donna J. Wolf
rt"\
Becker Gallagher Legal p'i;_'b-£.shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

..:_..

